OIG Investigative Reports, Three Michigan Residents Indicted by a Federal Grand Jury
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
(989) - 895-5712
(989) 895-5790-FAX
Eastern District of Michigan
Northern Division
101 First Street, Suite 200
Bay City, Michigan 48708
May 27, 2003
Contact: (313) 226-9758  -  Gina Balaya
Three Michigan Residents Indicted by a Federal Grand Jury
United States Attorney Jeffrey G. Collins announced that three Michigan residents were indicted by a federal grand jury in Bay City, Michigan, on May 14, 2003.  The indictment alleges mail fraud, wire fraud, income tax evasion, and related charges.  The indictment was sealed by court order until today.
Named in the 86-count indictment were Dennis L. Lukasik, 62, and Deborah D. Lukasik, 50, wife of Dennis Lukasik.  Both are residents of Royal Oak, Michigan.  The third defendant, Thaddeus H. Turner, 33, is a resident of Saginaw, Michigan.
Assistant United States Attorney James A. Brunson, who presented the case to the Grand Jury, stated that, "The indictment charges that Thaddeus Turner, Deborah Lukasik, and Dennis Lukasik entered into a conspiracy to commit investment fraud in connection with Perry Investments, Inc., which operated in Saginaw in the latter part of the 1990s.  The indictment alleges that Turner and the Lukasiks lured investors into a real estate investment scheme by making exaggerated claims about the safety and high return of investment opportunities they offered, but then used the bulk of the funds for personal expenditures.  Dennis and Deborah Lukasik are also charged in three counts of income tax evasion and a separate conspiracy charge of defrauding the Department of Education in connection with higher education loans obtained for their children by making false statements.  Turner, who filed for bankruptcy in February of 2000, is also charged with bankruptcy fraud.
Assistant United States Attorney Brunson added that, "If convicted on all counts, the defendants may receive sentences of up to five years in prison for each fraud count, five years for each count of income tax evasion, and five years for the two conspiracy counts.  Bankruptcy fraud, with which Turner is charged, is punishable by up to five years imprisonment.  Turner is also charged in 38 counts of mail fraud, a five-year offense.  Maximum imposable fines on all charges is $250,000 with the exception of one false loan statement charge against Thaddeus Turner, which is punishable by up to thirty years in prison and a fine of up to $1 million.   Any sentences will be imposed under the United States Sentencing Guidelines according to the nature of the offenses and the criminal backgrounds, if any, of the defendants."
AUSA Brunson stated, "The indictment has remained under seal pending Turner's arrest which occurred today.  He was placed on bond during a brief hearing held today.  Dennis and Deborah Lukasik are expected to be arraigned before U.S. Magistrate Charles E. Binder within the next two weeks in Bay City."
The case was investigated by the Internal Revenue Service Criminal Investigation Division, the United States Postal Inspection Service, the Federal Bureau of Investigation, and the United States Department of Education.
An indictment is only a charge and is not evidence of guilt.  A defendant is entitled to a fair trial in which it will be the government's burden to prove guilt beyond a reasonable doubt.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov